                    NATIONAL PROGRAM INSPECTION:




                EARNING INTEREST

                ON FEDERAL FUNDS

                    FOllOW-UP REPORT





                            January 1986

                    Control Number P- 09-86- 00059




REGION IX                          OFFICE OF ANALYSIS AND INSPECTIONS
SEATTLE WA OFFICE                        OFFICE OF INSPECTOR GENERAL
                           DEP AR TMENT OF HEALTH AND HUMAN SERVICES
                                         . .. .. .. . . .. . . .. .. .. .




                EARNING INTEREST ON FEDERA FUNDS

                       Phase II" Follow-Up Report




                             TABLE OF CONTENTS


                                                                            Page
INTRODUCTION TO FOLLOW-UP REPORT

FINDINGS IN BRIEF

RECOMNDATIONS

 PHASE II" STUDY:    PURPOSE AN APPROACH

FINDINGS ON PHASE   II:
   INTEREST SELDOM REPORTED

   USE OF INTEREST-BEARING ACCOUNTS

   DRAWDOWN PRACTICES      AN " FLOAT"   PERIODS

   OVERAL FINDINGS--PHASE       II . .
APPROACHES TO REFORM      AN SAVINGS IMPLICATIONS                       . 11




ATTACHMNT:   PROPOSED REVISION TO        OM CIRCULAR     A-IIO
                        INTRODUCTION TO FOLLOW- UP REPORT



In August 1985 , the HHS Office of      Inspector General issued a national program
inspection report entitled " Earning    Interest on Federal Funds " (P- 09-86- 00055).
This report resulted from a study which sampled from 4, 000 nonprofit grantees of
HHS, generally excluding universities , hospitals and state and local government
grantees. This   report is   now dubbed the " Phase I" report.
Since August 1985, the Office of Inspector General has completed a follow-up or
 Phase II" study of selected university, hospital and local government grantees for
the purpose of determining their similarity to the statistically valid sample of
other nonprofit grantees studied in Phase I of the program inspection. All
grantees studied were non-state grantees and , therefore , required to return any
interest earned on federal funds.
In the meantime, in response to the Phase I report , the Office of          Management
and Budget has published a proposed revision to Circular A- ll      0 ( Federal   Register
Vol. 50, No.     210 , October   30, 1985). This revision        (see Attachment     I), if
finalized , will require nonprofit grantees (excluding local governments)
                                                                      to maintain
federal funds in   interest- bearing accounts and to remit earned interest to the
federal government    unless such interest totals less than $100 per year on all
federal funds received by a given grantee.
This report of the Phase II study includes an analysis        of the   government-wide
fiscal impact of the proposed        change to OM B Circular A- llO , as well as
consideration of extending this policy to    local government grantees not governed
by. OMB Circular A- llO.
FINDINGS IN BRIEF


HHS FINDINGS:

   Virtually no Phase II HHS grantees         report or return interest to the federal
   government ,    compared to   4% of the Phase I grantees    found to be doing so.

    Like Phase I grantees , about 80% of the Phase II grantees claim to be
   keeping federal funds in non- interest- bearing accounts. Phase II showed that
   many grantees , especially large ones , are quite likely to be moving excess
   federal funds into investment or other accounts while reporting " no interest
   earned "    due to a   bifurcation of accounting and banking systems within their
   organizations. Institution-specific audits would         be required to verify this
   practice and its impact.
   Large grantees invariably base letter-of-credit drawdowns on checks written
   rather than funds exiting the bank , which means that there             is at
                                                                       least a
   6-day "float" period during which federal funds draw or could draw bank
   interest.
    Drawdown practices of local governments and hospitals appear similar to those
   of Phase I grantees, averaging once every three weeks. Universities typically
   draw down weekly. About one- quarter of the Phase II grantees admitted
   that their drawdowns routinely exceed the amount of funds disbursed for that
    period.
    A conservative estimate of federal        dollars lost annually by grantee failure to
    earn or return interest on OHDS and PHS non-state grants is          as follows:

       Phase I:       Nonprofits                                   $4. 25 million
       Phase II:      Local Governments/School
                          Distr icts/Hospi tals                      1.29 million
                      Universities " float"                           35 millon
                                                                      89 million

    However     institution-specific audits   especially of large grantees , would
    probably confirm much larger       multi-     year federal interest losses.
                                                                              Bank
    deregulation in 1986 may make interest potential much higher thereafter.
GOVERNMENT- WIDE APPLICATIONS:

    Had the proposed revision to      OMB Circular A- 110    been in effect in   FY 1985,
    interest returned to the federal government by nonprofit grantees (excluding
    local governments) would     have been $13- 15 million for that one year.

    Were the same rule extended to local government grantees by revision of
    OMB Circular A- 102 , as well as OMB Circular A- llO , then the total amount
    of interest returned annually on these federal funds would be over                 $41
    million.
                                                                                            ""   ..'




RECOMMENDATIONS

   The proposed revision of OMB Circular A- 110 should be finalized to require
   nonprofit grantees to      maintain federal funds in bank accounts           which pay
   interest.

   government grantees.
   OMB Circular A- 102
                   same policy to
                                  

                           should also be revised to apply the                       local"

   HHS Regulation 45 CFR 74 should be revised and enforced in accordance with
   OMB Circular changes; but regardless of such changes HHS program officials
   should actively encourage and monitor use of interest- bearing accounts and
   the reporting and return of interest earned. Contract auditors should be
   explicitly instructed to identify interest earned on federal funds.
   HHS/OIG Office of Audit should undertake audits of selected large grantees

   especially universities , with respect to       interest earned on federal      funds.
   Prefer ably,   HHS should conduct uni versi   ty audits as the " cognizant
                                                                     agent" for
   all federal agencies. Ideally, such audits might be done under PCIE auspices
   and might involve interdepartmental teams of auditors.
                                                                                           - '   --.
                                                                                                 .-,:,,.




"PHASE II" STUDY:       PURPOSE AND APPROACH

The National Program Inspection " Earning Interest on Federal              Grant Funds,
(August 1985) was based upon a statistical sample selected from about 4, 000           non-
state grantees of OHDS and         PHS.
                                      These were grantees judged to be more
appropriate for a mail survey approach than another unsampled group of over
  000 grantees. This latter group excluded from the universe sampled included all
hospitals, colleges , universities , local   governments and school districts.
The key findings of the August 1985 Inspection were as follows:
     Of about 4, 000 nonprofit grantees           of the Office of Human Development
     Services (OHDS) and the       Public Health Service (PHS) who were studied in
     Phase    80% do not earn interest on federal funds kept in banks , 16% earn
             I,

     interest but do not report or return any to the federal government and only
     4% earn and return interest. .

     Some 94% of all grantees elect to commingle            their federal grant funds in
     bank accounts  with nonfederal funds. The mean average daily balance in
     these accounts is $65, 831 , of which the federal share is $20 129, or about
     31%.

     The amount of     federal funds lost by these nonprofit grantees who fail to
     collect or return interest    is $4   250 000 per year. However , this amount may
     be significantly higher due to bank deregulation        in 1986 , when banks may
     competitively pay more than 5- 1/4% interest.
     About 80% of  these same nonprofit grantees are also losing an additional
     $8 million per year in interest on nonfederal funds kept in non- interest­
     bearing accounts. Again, this loss may be higher after bank deregulation.
     If it is assumed (or later proven) that these findings are also representative
     of the 9, 000 to 10 000 other grantees of OHDS and PHS who are              required to
     return interest but   were not sampled in this study (including private hospitals
     and colleges, school districts, local governments and other grantees), then the
     lost interest   totals over $13 million per year in federal        funds , plus about
     $25 million per year in nonfederal funds.
 Phase II" of this study was designed to shed further light on the last finding,
the issue as to whether private university, local government , school district and
hospital grantees have the same interest practices as the other non-state
grantees.
From the FY 1984 grants lists of OHDS and PHS, we selected (non-randomly) a
group of 30 grantees. Our intent was to select grantees including (a) private
universities/colleges (b) local governments/school districts , and (c) private
local government hospitals/medical centers. We           sought to avoid concentration of
these grantees in one state or geographic area,          and we wanted to have between
   10 grantees    for each type whose          cash reports we could obtain from HHS
payment centers.
The sample finally selected and the grantees contacted include 8 hospitals with a
quarterly drawdown of about $10 million, 10 local government or school district
entities with a quarterly drawdown of about $17 millon , and 12 universities with
  quarterly drawdown of about $133 millon in HHS funds. These 30 grantees
therefore, draw approximately $150 million per quarter or $600 millon per year
in HHS dollars. These 30 grantees represent less than 5% of the non-state
grantees of OHDS and PHS , but nevertheless draw more than 15% of the federal
dollars going to all non-state grantees under those programs nationwide.

This Phase II        sample,   in dollar terms, is more than   twice  aslarge as the
statistically valid sample       of grantees drawn in Phase I: $600 millon (compared
to $253     million) even      though it includes only 30 grantees (compared with the
Phase I final sample of 432 grantees).


                                            Phase I             Phase II

        Grantees                           432
        Annual HHS $                      $253m              $600m
        Sample                            Random             Non-random
        Universe of Grantees                4000               8000
        Uni verse of HHS $                 $1.6 Billion        $2. 2 Billion




than the approach in Phase           I.
Our approach to grantees in Phase II was by telephone only, and far less rigorous
                                  No bank records were reviewed in Phase II.
Rather , the respondent' s answers are taken at face value on issues actually
verified in Phase I: i. e., whether the bank accounts used for federal funds are
interest- bearing or not.
The grantee official contacted in Phase II was ordinarily the financial officer
who signs the quarterly federal cash transactions report (PMS 272) on which is
certified the amount of interest earned on the federal funds. Frequently,
however ,   it was
                necessary to talk with other persons in the organization to      learn
the nature of the bank accounts used by these organizations.
FINDINGS OF PHASE II

Interest Seldom   Reported
Only one of the    grantees sampled in Phase II reported any interest earned in                           the

quarter reviewed.      Moreover, all respondents confirmed that                           this is the usual
pattern. Most     stated flatly, " We never report                       any interest on federal funds.


The one grantee sampled who had reported interest, Case Western University,  said
that this instance was actually the only time in recent  memory  that interest
                                                                      were so
                                                                                on
                                                                               far
HHS funds had been reported. For   this quarter project disbursements
below estimates    that the financial manager felt it was incumbent to
                                                                              report
                                                                           quarterly
interest. In   retrospect, he regretted having done so     because   that
                                                                       as to why he
report brought inquiries from the HHS Payment Management Center
had drawn so much extra federal    cash. The  lesson he learned,  he said,  was that
 reporting interest is a sure way to get your drawdowns   scrutinized.

In sum, it appears that the Phase                 II grantees             virtually never report interest
                                                                    interest
HHS funds, and that the Phase I estimate that 4% of grantees report 

                                                                                                          may
be too high for the whole population of non-state grantees.


This means that Phase II grantees either                            (a) earn interest on      federal funds
without reporting it or      (b) do not earn interest on federal funds, either because
these funds     are   not    kept in interest- bearing accounts or because grantee
disbursements always equal or exceed the
federal                             funds on hand. We wil explore
each of these possibilities in turn.
 Use of Interest- Bearing    Accounts

 In Phase I ,   we viewed actual bank statements which indicated that no
                                                                                                       interest
 was being paid to the holders of those accounts in 80% of the cases. In Phase
 no bank statements were viewed; Phase II findings are based solely upon the
 statements of the grantees contacted.

                                                                                                    federal
 Roughly the same percentage of Phase II grantees indicated that the
 funds go into non- inter est- bearing accounts. Queried as to
                                                                                         why large amounts
                                                                   it is the
 would be  held in such accounts, grantees commonly responded that
             s policy to avoid earning interest on the federal funds
                                                                                                because they
 organization                                                    return the money
 believe that it is not allowed , or because they would have to
 anyhow, or because accounting for the federal share of
                                                                                          interest would
 burdensome.
                                                                                          operating accounts
 However , several university respondents mentioned that the
 into which  federal letter-of-credit                funds go are "kept at a low balance " or
 frequently emptied into any institutional operating                          account or investment account
 which does draw interest.
 With all    the
              universities contacted as                           of the larger local
                                                                  well       as many
 government and hospital grantees, a                         bifurcation between the
                                                                pattern of


 accounting function and the       banking/investment function was clear ly evident. In
 fact, many of the very officials           who         sign    the quarterly federal cash          management
 reports indicating " no interest       earned"             did not know whether the bank              accounts
 used were interest- bearing or not; they referred us to the " treasurer s office " or
 had to make a secondary inquiry themselves to answer this question. They
 routinely base their official quarterly affirmation of " no interest earned" on their
drawdown and accounting system             rather than on the actual bank statements. In
other words, these reporting          officials often don t know what' s happening with the
actual bank account.

The Treasury Department Fiscal Manual (TFM 2080. 30)                                and HHS grants
management regulations (45 CFR 74. 91) stipulate that letter-of-credit funds should
be drawn only in amounts needed for "immediate disbursement. " We verified that
in every case, "disbursement" is defined by grantees as the writing of checks or
vouchers, or " running the payroll" --not as the actual exit of funds from the
grantee s bank account.              case s of the larger Phase II grantees , the
                                     In most

accounting office which completes the quarter ly                            cash management report
(PMS 272) has neither actual knowledge of the bank events nor any system to
                                                      bank
track the actual exit of federal grant funds from the 
                        account.

This in itself does not prove            that these grantees are earning interest on federal
funds , but it does explain how the                large institutions could routinely be reporting
 no interest earned"           when , in fact, their cash      management office (separate from
accounting) may indeed be investing excess cash routinely.
In sum, most Phase II grantees, like Phase I grantees, are reportedly putting their
                   non- interest bank accounts , but there is a strong possibility
federal funds into 


that excess funds are routinely switched over to investment or interest accounts
possibly without knowledge or control by those officials who report " no interest
earned" to the federal government. It is therefore possible that interest is being
                                                                       accounting
earned on federal funds remaining in the bank--whether or not the
office lists them as "disbursed. The second half of the question is whether such
excess federal cash is    actually present in the bank accounts.  This  raises the
                                                                 checks, once
issue of the grantees ' drawdown practices and the rate at which
written , cause funds to actually exit the bank accounts.

 Drawdown Practices and           "Float" Periods

 Phase I  grantees averaged payments about once per month (for those paid by
 treasury check) and about once every three weeks (for letter-of-credit grantees).
 Phase II grantees appeared quite similar. Local governments and
                                                                           hospitals
 routinely draw on their letter-of-credit either once or twice per month , with few
 exceptions. Universities show a prevailng practice of weekly    drawdowns, with a
                                                               Phase II grantees to
 few drawing more or   less  frequently.   It was common  for
 mention that they try to draw                 primarily in relation to their bi-weekly or monthly
 payrolls, or their         weekly " accounts receivable "     runs.

                                                                                               down in
 In Phase II ,
             17 of the 30 grantees stated that they normally try to draw
 advance of disbursement or to coincide with disbursement (defined as check or
 payroll writing). Eight of these said their federal funds accounts
                                                                     tend to run
                                                                  about par , and
 lower balances than their disbursements, five said that they ran
 four said that their federal fund balances                       are       usually higher than their
 disbursements.
 Thirteen of the 30 grantees said that they                draw down only after disbursement       has
 occurred (checks or payroll have been written),           invaria bly claimed that
                                                                and these


 their federal fund balances were lower than their disbursements most of the time.
                                                               their payroll or
  Some of these, however , draw down immediately after running
  accounts receivable, so that the              federal letter-of-credit funds may routinely reach
  the bank             via electronic fund transfer before most of the              checks   or payroll
  withdrawals get there.
 This raises the question of the "float" period-- the time between the grantees
 writing of a check and the corresponding exit of funds from the grantee s bank                    as their
 account. Phase II respondents estimated anywhere from                            3 to 30 days
 normal "float"           period on warrants, with a prevailing estimate of about 7 days.

 Payroll payments sometimes go    directly into employee s personal accounts (and
. therefore exit the grantee s account) almost immediately if the employees have
  agreed to "direct deposit.
  Phase II respondents varied considerably on direct
 deposit practices; but only about one- third
                                            indicated that                        more than half of their

 employees were on direct payroll deposit , with lower levels of direct deposit for
 other persons paid from federal                         grant funds , such       as sub-contract staff.
 Assuming that half the federal funds go for payroll and that one- third of payroll
 is direct deposit, the average float period of seven days would be reduced by
  5x.  33 + 7) or about one   day. It is therefore conservative, we     believe, to
 estimate the overall average grantee "float" period at six days.
 This means that the average federal grant dollar probably sits in the bank for six
 days after disbursement (the time the check or payroll is written), assuming that
 the federal dollar is there at the time                   of disbursement.

 In summary, Phase II grantee responses indicate that about half are drawing down
 their federal funds on a par with their disbursement rates , about a quarter at a
 rate higher than their disbursement rates , and about a quarter at a rate lower
 than their disbursement rates. Only an individual audit of drawdowns and
 disbursements could definitely determine this pattern for each grantee.


 However , all grantees define "disbursement" as checks written rather than as
 funds exiting the bank. Even allowing for employees paid via direct deposit , it is
 estimated that federal funds remain in the bank an average of six
                                                                       days after
 "disbursement.
 Therefore, interest either                     (a) could be earned   or   (b) is being earned   on at   least
 the six-day "float" of federal money, 

                                                            plus any funds drawn down in advance of
 the date of "disbursement" by some grantees. But the government is receiving
 the benefit of none of this actual or potential                      interest.

  Overall Findings-- Phase                 II

  The Phase I report found that $4. 25 millon is lost annually in interest not earned
  and/or not returned on federal funds to one group of non-state grantees. This
  was based on actual bank statements and federal cash reports of these grantees.
  The report estimated that an additional $8. millon may be lost          annually in
                  if all other non-state grantees are like the Phase
  federal interest 

                                                                      I group


  Phase II is able                to verify some of the similarities of grantees to the Phase
  sample, but unable to fully substantiate the potential savings beyond an additional
  $2. 64 millon. The Phase II estimate, therefore, is that overall , at least $6.
  million per year is being lost in interest not earned or not returned by OHDS and
  PHS non-state grantees.
  Specifically, the Phase II study sampled          from a universe of over 9, 000 grantees
  whose FY             1984 grants totaled some $2 169 millon. Of this amount, some $1, 485
  million went to private university/college grantees, and the other $684 million
  primarily to local               governments and hospitals.
Phase II discussions      with the sampled grantees indicate that they closely resemble
the grantees   sampled in Phase I with respect to drawdown rates and
accounting/banking practices. Based upon an average drawdown rate of once
every three weeks , these grantees are estimated to have an average daily bank
balance of 3. 4% of their annual grant amounts. This represents approximately the
expected" pattern for such grantees , although Phase I grantees were found to be
carrying higher balances in many cases. We , therefore,   consider a conservative
estimate for annual lost interest among this group to be:




         Local Governments/School Districts/Hospitals:
           $684 million x 3. 4% x 5.         54%* = 	   $1, 288, 382
                                                         Annual Lost Federal Interest


Universities and colleges ,        by contrast , were found in the Phase     II study to be less
similar to other grantees in           some     respects. Their drawdown pattern           is more
frequent (usually      weekly), and their       average federal dollar volume per grantee is
probably much higher. Using the same formula as above, we could estimate their
                                                                  of
 expected" average daily bank balance to be 1 % their annual grants , based
upon weekly drawdowns.

However , the Phase II discussions revealed that university drawdowns are usually
based upon a bifurcated accounting/banking system which clearly misses the
"float" period betweenthe time a check is written and the time funds exit the
bank. Estimating this at 6 days at least 6/365 or 1.644% of the federal grant
funds are in grantees ' banks on                 the average
                                                   day, even if letter-of-credit
drawdowns coincide perfectly with "disbursements " as defined by the universities.
Therefore, we estimate, for:


     Uni versi ties/   Colleges:
        $1485 million x 1. 644% x 5.          54% =     $1, 352 502
                                                         Annual Lost Federal Interest


In summary, the estimate of          federal funds being lost in uncollected      or unreported
interest on federal OHDS and PHS grants funds is:
        Phase I:          Nonprofits                                      $4. 25 millon
        Phase II:         Local Governments/School
                              Distr icts/Hospi tals                        1. 29 million
                          Uni versi ties   "f loat"                          35 million
                                                                             89 million




* 5- 1/4% interest rate      compounded monthly.
This is a cons ervative            estimate based upon 

                                                                       1984 grant totals of these two
                                                                         FY


agencies. However , OIG                          inspection staff believe that individual and specific
audits of grantees on the interest issue would reveal much largerlarger
                                                                   average daily
                                                                        grantees
balances than those estimated in Phase 

                                          and that some of the    II,


would be found to be already earning interest via investment of the
                                                                        excess
federal cash. Since this is not a new phenomenon , we would expect such audits
to uncover multi- year                     failure to return interest owed to the federal government.
It should also be remembered that in 1986 ,                             bank deregulation may put banks into
heavier competition on interest                            offered , so that rates higher than 5- 1/4% may
become commonplace. 
                      In   fact, it is quite likely that         some investments made from
"floated" federal funds may                       already exceed that         rate.
APPROACHES TO REFORM AND SAVINGS IMPLICATIONS

The Phase       I report recommended that OMB Circular A- 110 and HHS
Administrative Regulation 45 CFR                      require non- profit grantees to
                                        74 be revised to

use interest- bearing accounts for federal funds , and that interest earned thereby
be monitored and audited appropriately.
The Phase     II   study confirms
                              the need for                 these changes,   as well as   their
applicability to grantees like    universities. Specifically, mandated use of
interest- bearing accounts would make any interest earned on excess drawdown or
"float" easily
      ' detectable     and auditable, regardless   of bifurcated
                                                            required to go into
accounting/banking systems. Since federal funds would be
interest- bearingaccounts, the federal claim to at least a portion of the interest
accruing in   such accounts would be evident, as would the federal expectation
that interest be accounted      for and returned. The           interest audit trail would
established in the   bank records. In fact ,         the simplest approach would probably be
for these grantees to   establish a separate "federal               holding account" in which
interest would be all federal.
This is not only possible, but is in fact already happening with some federal
funds. Four institutions have current agreements with the U. S. Navy Office of
the Comptroller that they will keep Navy funds in a segregated special account
on which interest is earned and reported. The institutions are:
     Harvard University
     Duke University
     North Carolina State     Uni versi ty
     Hudson Institute
These arrangements         are by    special contract provisions between the Navy
Comptroller   s Office and theinstitutions. The Navy office began this system out
of dissatisfaction with letter-of-credit flexibility for grantees/contractors , which
allowed early drawdown and inadequate performance controls, as well as lost
interest. The Navy office pointed out to us, however , that it would be rather
inefficient for      federal department dealing with a large university to
                    each
negotiate a separate bank account for its funds; rather ,              a single federal account
in the university    s bank might make more sense.

For colleges and universities, the single federal holding account approach fits
 well with the " cognizant agency " audit approach established under OMB Circular
  88, in which one federal agency is responsible for overseeing the audit for all
 federal funding agencies.


 In fact, since HHS   is the " cognizant agency " under A- 88 for over 98% of the
 colleges and universities in the country, it would be possible to do selected
 audits of interest earned in large universities on a multi- federal-agency basis
  e., auditing interest earned on all federal funds. Any dollars recovered would
 revert directly to the Treasury         as unappropriated funds (rather than to the
 individual federal programs).       This approach was recommended by PCIE member
 (NASA- OIG) in response to the Phase          I report.


 If finally approved , the proposed revision toOMB Circular A- 110 will require all
 grantees and contractors       subject to this circular todeposit federal funds in
 interest- bearing accounts and to return any interest earned thereby to the federal
 government unless     the total   interest on all federal      funds amounts to less than
 $100 per     year. This policy would              apply to all non- governmental grantees
including colleges and universities, hospitals and other nonprofit organizations.
State and local government grantees are covered under

                                                        OMB Circular A- I02 and
states (but not local government grantees) are exempted from returning interest
by the Intergovernmental Cooperation Act.


The Phase I study  found that only 4% of the grantees sampled were earning and
returning bank interest         federal grant funds, and that these were the
                            on the                                      federal
smaller grantees receiving about . 5% (one half of one percent) of the
grant dollars. A  sample less oriented toward the  smaller grantees would most
likely have shown    the total   interest returned to be insignificant.

In response to OM B Bulletin 85- 18, federal agencies reported that in
                                                                        FY 1984
                                                   grants to the following types
they awarded approximately $102 billion in federal
of organizations:

    States                           $80 606, 497, 000
    Local Governments
                   956, 089, 000
    Other Grantees
                      092, 000 000

Generally, OMB Circular A- 110 covers the "Other Grantees "federal
                                                              identified above.
                                                                     grants to
However, in cases where local governments pass through                   110 as
nonprofit agencies directly, those nonprofit grantees are governed by A- awards
well. A conservative estimate is that between $7 and $8 billion in grant
in FY 1984 were governed by A- 110 policy.

If it is assumed that these        federal funds and grantees followed the same pattern
 as that indicated    in the HHS/OIG sample, then some 3. 4% of these funds werethe
                                                                                 in
 grantee bank accounts on the average day and would have earned    interest at
 annualized rate of 5. 54% (5- 1/4% compounded monthly), had the new A- lID policy
 been in effect in FY 1984.
 Under the proposed rule, grantees earning total         interest on federal funds under
 $100 per year would not be required to return           this interest. The HHS sample
                                                                                    grant
 showed that this limit would normally exclude grantees whose entire federal
 was under $60,                     However, only . 68% (less than seven- tenths of
                    000 for the year.                           small grantees, so
 one percent) of the grant funds in the sample went to such
           rest, or 99. 32% of the grant funds would have been
                                                                    subject to the
 that the
 requirement to return interest earned.

 Thus, our analysis indicates that the       interest returned to the federal government
 in FY   1984, had the new policy been in effect ,         would have been between $13
 and $15 milion, as     calculated below:

      (High)     $8 billion x 3. 4% x 5. 54% x 99. 32% = $14. 96 millon

      (Low)      $7 billon x 3. 4% x 5. 54% x 99. 32% = $13. 10 millon

                                                              revision of OMB
 Were this same rule extended to local government grantees byamount
 Circular A- I02 as well as OMB Circular A- liD , then
                                                                    of interest
                                                              the total
 returned annually would be over $41 millon, as 
        calculated below: .
      ($14. 96   bilion + $7. 09   billon) x 3. 4% x 5. 54% x 99. 32% = $41.25 millon.
                     ..    .,..                                             ....               ...
                                                                                                ..




                                                             Attachment

               Federa1 Regster 
         Vol so.   No. 210            Wedne8day. October 30. 1985              Notice8   45183

OFFICE OF MAGEMENT
8UDGET
                                   AND                  Health        S8. 'Ireew
                                                        that 80 percDt of the anteel dJ
                                                                                           clad
PropNd Rev to                 CI      A-1 10
                                                        earn interelt on FederaJ fudi kept
                                                        baab 11 
               Mr ofiDtc     Nt
AGENC Financial Nanasemet

Divilion.     Of
            of Manasement and

                                                        Dot report or
                                                        Federal       Got
                                                        earned aD retued
                                                                            retu any  it to the
                                                                                    an only.
                                                                             inlet. Ft. 1M
Budaet
                                                 limited teet made. the IG .Itiated tlt
                          Rnaeto                        the Feder Governent 10lt about 115
AC
                                                        milli in ponti 1D1D..
                                                         OMB Ciar A-110 prode tht
A-11D.
MM. Th               Dotice offen interelted
. partel an oPPOrfty to comment on a
  propoled reviion to OMB Ciar A­
                                                         Federal calh
                                                         recipieltl of
                                                         concde wi
                                                                            ma n.iIable to
                                                                            vata Ihal be
                                                                             thei calh
                                                                                           ti
                                                                                         uee. 'n.
                                       Grata
                                        tmed
 110. .' Uniform Requimenta for
 and Agementa with lntitutiona of

                                                         propod rr.hm Ie not
                                                         chanp that poliC' br
                                                         &ranteel to maitain
                                                                                    8Dc:
                                                                                    mnIlCJ
 Hier Education. HOlpltall.   and Other
                                                                              rr8l0l
 Nonprofit OranitioDL " The revi.ion                     balancel or Federa fadl.
 would requi      .e recipienta to hold                  reco cllbmd
                                                              ttl1 an Fed caeh wfDot
                                                                                          The

 Federal fudi in accunta tht pay
                                      imedateI upon
                                                                   ye be
 mterest.
                                               receipt. Therre. It Ie prsed                tht
 PO AnINORno COACT                                       when calh il .vailable it ehoud be
                                                         depOIUed in Intalt         bnri
 Palmer A. Marcntonio. Financial

 M&Dsement Divi.ion (20) 3g 393.
                             11 il   propod th.t th foUow
                                                         paragr            . be aded to Attach 1
     De led: Oeober 11.                                      Pa)'ment RequilMt.. "        01   Ciar A­
 Jo J.                                                   UD.
 Deputy AMag         Djl8r fo Fino/                           Repiml8 8b        8I8i!Dllrel'''-
                                                                                     F8d fu .
 Nono,me1Jt.
 Ofca or      Mat      aD Budt
                                                         inlere.: bearna ICCout&
                                                                                   pro tb
                                                         IUch Iccount. .ball be remitted to the
                                                         Federlr             tUt
 Circular A-l1D. 'Vniform lUujrel1ents                   Where fud.    fr MVua qmciea ar

 for Grats and Ag1'entl , with                           drpcm It' In the a.e   ect. t!1! ab.n
 Institution, of Higher Educotion.
                      be retted      th    epH
                                                                                01 . pP ND
                                                                      lere III00ti to '" th
 HO$pitol,. an Oter Nonprofit
                           bali.. In                                   1100 .

                                                         )'ar 011 al ,          6I DI &a 

 OranZOtiOM                                              nm.ttec
 AQ
 Budaet.
         Ofce or Wament and
                                                           The OfCt of Wamet 8J ..dp
                                                         ha., al yet. made DO ecilion with
 AC Prd ren           to the Ift                         relpect to the propo1ed revi.ion. Al
                  Ciar A-no.
  payment poliel of
                                         interested partel Il encourapd to

  '"niorm Requ1meta for Grata and                            make their vi         know
  AgmentJ with IDtitution of Hier                            rot PU          WO'n COAC
  Education. HOlpita. and Oter                               Palmer A.     Wat.nio. Fi"8""81
     Nonprfit Oran1:cm.                                      Manlaemett      Divi om
     IUII opty
          Tbl
     pael an
                          DOtice ofen mterelted
               to coent on a
                                                              C.   ZO.
                                                                     (20)       18.
                                                             Manasement and Budaet. WI

                                                               Commentl ahuld be reved witI
                                                                                                1h0D.
     proPOled reion to OMS Cinar A­                          10 dlYs or ths DOtiCt. 
  Al eomJ.
     110. "Uniorm Reuienta for Grantl                        .howd be I\mitted in duplte.
     ed Agents     with IDtitutiODI of
                                                             (F Dc.    1W PU 1WH
     Hier Education. HOIp.tal. an Oter
     Nonprofit OrantiOD." Tb reion                           IL CI 

     wed .- tb                ndpieota to bold
     Fed fu                         tbt pa,
     lDerlt

       The reviion Ie baad 01 a

     nCm.endatin by th Inctor
                Deent of Health and
     Genera1 (1G).
     Humn Serven. Tb IG made an audit
     10 det.nn wht petq
     Fan te-l we U8 intert beri
                             fu.
     8ccunta (M      deita ofUJO
                              Federl
     nelG reviewed a18t          nonprofit
        tee of the Ofce or Human
     Developm8D &erv ed Ib Public
